TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Inadequate Aircard and BlackBerry®
                    Smartphone Assignment and Monitoring
                    Processes Result in Millions of Dollars in
                           Unnecessary Access Fees



                                        January 11, 2013

                              Reference Number: 2013-10-010




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


INADEQUATE AIRCARD AND                               Processes for assigning and monitoring the use
BLACKBERRY® SMARTPHONE                               of aircards and BlackBerry® smartphones are
ASSIGNMENT AND MONITORING                            not adequate to ensure that employees have a
PROCESSES RESULT IN MILLIONS OF                      business need for the devices. Assignment of
                                                     these devices is generally based on job series
DOLLARS IN UNNECESSARY ACCESS
                                                     classifications without adequately ensuring a
FEES                                                 business need exists.
                                                     In addition, the IRS paid approximately
Highlights                                           $1.1 million during Fiscal Year 2011 for
                                                     13,878 aircards and 754 BlackBerry®
Final Report issued on                               smartphones that were not used for periods of
January 11, 2013                                     three months to one year. For example, TIGTA
                                                     identified 45 aircards and 68 BlackBerry®
Highlights of Reference Number: 2013-10-010          smartphones that were not used at all for the
to the Internal Revenue Service Chief                entire 12 months of the fiscal year.
Technology Officer.                                  Finally, 2,560 employees may have been
IMPACT ON TAXPAYERS                                  assigned an aircard or BlackBerry® smartphone
                                                     without required management approval. These
In Fiscal Year 2011, the IRS had approximately       devices cost the IRS more than $950,000 in
35,000 active aircards and more than                 Fiscal Year 2011, or about $4.8 million over five
4,400 BlackBerry® smartphones assigned to            years.
employees, providing them with mobile Internet
and e-mail access. TIGTA found that cost             WHAT TIGTA RECOMMENDED
savings can be achieved if the IRS ensures that      TIGTA recommended that the IRS develop
only those employees with a valid business           processes to periodically evaluate job series
need are assigned an aircard and/or                  profiled for aircards and BlackBerry®
BlackBerry® smartphone and provides more             smartphones and ensure managerial approval of
effective oversight and monitoring of these          devices is based on business need; establish a
devices. Improved policies and procedures can        pooling policy for aircards; review its inventory
result in savings of $5.9 million over five years,   records to identify devices shown as assigned to
which would help to support the President’s          employees without proper management
November 2011 Executive Order to cut waste in        approval; develop a formalized process to
Federal Government spending and identify             identify BlackBerry® smartphones with no
opportunities to promote efficient and effective     usage; and identify whether BlackBerry®
spending.                                            smartphones with no data use could be replaced
WHY TIGTA DID THE AUDIT                              with a lower costing cellular telephone.

This audit was initiated because the President       In their response, IRS management agreed with
issued an Executive Order in November 2011           two of our six recommendations. IRS
directing Government agencies to cut combined        management agreed to establish a policy to
costs by 20 percent in six areas, including          periodically evaluate the job series profiled for
information technology devices. In Fiscal            aircards and BlackBerry® smartphones and
Year 2011, the IRS spent about $8.5 million on       agreed to formally document their process to
aircards and $2.9 million on BlackBerry®             monitor BlackBerry® smartphones with no
smartphones to enable employees to have              usage. Although IRS management disagreed
mobile Internet and e-mail access. Our               with our recommendation to establish a pooling
objective was to determine whether the IRS is        policy for aircards, they agreed to conduct a
managing its aircards and BlackBerry®                business assessment to determine if a shared
smartphones in a cost-effective manner.              aircard policy would be effective.
                                                     IRS management disagreed with our three
WHAT TIGTA FOUND
                                       HIGHLIGHTS


remaining recommendations, citing previously
existing procedures. Based on the large number
of unapproved and unused devices identified
during the audit, TIGTA believes the IRS should
take action to enhance its existing controls.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 11, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Inadequate Aircard and BlackBerry® Smartphone
                             Assignment and Monitoring Processes Result in Millions of Dollars in
                             Unnecessary Access Fees (Audit # 201110032)

 This report presents the results of our review on how significant cost savings can be achieved in
 the Internal Revenue Service’s (IRS) aircard and BlackBerry® smartphone programs. The
 overall objective of this review was to determine whether the IRS is managing its aircards and
 BlackBerry® smartphones in a cost-effective manner. This audit was included in our Fiscal
 Year 2012 Annual Audit Plan and addresses the major management challenge of Achieving
 Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                    Inadequate Aircard and BlackBerry® Smartphone Assignment and
                           Monitoring Processes Result in Millions of Dollars
                                      in Unnecessary Access Fees




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Processes to Assign Aircards and BlackBerry® Smartphones Are Not
          Adequate ....................................................................................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 5

                    Recommendation 3:........................................................ Page 6

          Employees Are Assigned Aircards and BlackBerry® Smartphones
          Without the Required Management Approval .............................................. Page 6
                    Recommendation 4:........................................................ Page 7

          Unnecessary Usage Costs Are Being Paid for Unused
          and Underutilized Aircards and BlackBerry® Smartphones ........................ Page 8
                    Recommendations 5 and 6: .............................................. Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures............................................................... Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 17
       Inadequate Aircard and BlackBerry® Smartphone Assignment and
              Monitoring Processes Result in Millions of Dollars
                         in Unnecessary Access Fees




                       Abbreviations

FY               Fiscal Year
IRS              Internal Revenue Service
IT               Information Technology
NTEU             National Treasury Employees Union
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees




                                      Background

In Fiscal Year (FY) 2011, the Internal Revenue Service (IRS) had approximately 35,000 aircards
assigned to employees. Aircards provide mobile Internet access from laptops when employees
are working outside of an IRS office. The IRS pays a monthly access fee that can range from
$10.00 to $29.99 per month per card depending on the provider. A per card fee is paid each
month regardless of whether the card is used. Aircard access fees totaled approximately
$8.5 million for FY 2011.
In addition to aircards, the IRS also provides employees with BlackBerry® smartphones. The
IRS is not charged for the BlackBerry® smartphone device; rather it is charged monthly access
fees ranging from $40.00 to $63.00 per month per device depending on the provider. The IRS
incurs this monthly fee regardless of whether the BlackBerry® smartphone is used. In FY 2011,
the IRS had approximately 4,400 BlackBerry® smartphones assigned to employees, costing
approximately $2.9 million.

The IRS and National Treasury Employees Union (NTEU) agreement standardizes
telecommunications equipment assigned to employees
In June 2010, the IRS and the NTEU signed an agreement to standardize IRS policy regarding
which IRS employees would be allowed (referred to as a “profiled” position in the agreement) to
receive certain information technology equipment, including aircards and BlackBerry®
smartphones. The IRS determined that employees would be profiled for information technology
equipment based on their mobility needs. For example, those employees in occupations that
conduct frequent field visits and travel to different locations were classified as “high mobility”
and, as such, can receive an aircard.
In conjunction with this agreement, the IRS evaluated more than 390 employee positions to
determine the mobility of the positions and the type of information technology equipment
necessary to perform the work required by those positions. This evaluation resulted in
71 different job series being profiled as high mobility. Employees holding positions in these
profiled job series are entitled to receive an aircard. BlackBerry® smartphones were initially
assigned only to executives and senior departmental managers beginning in October 2008.
However, the IRS subsequently agreed in June 2010 to provide BlackBerry® smartphones to
employees depending on their job series, grade, and need for such a device.
If an IRS employee has been profiled for an aircard or BlackBerry® smartphone, they can
request the device from the IRS Information Technology (IT) organization. IT organization
management stated that an employee in a profiled job series must obtain management approval
before the request can be sent to IT organization personnel to assign the device. The IT
organization verifies that the employee’s position is profiled for the device requested and then
                                                                                           Page 1
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



provides the device to the employee. The NTEU agreement also contains an exception policy
that allows nonprofiled employees to request telecommunications equipment through their
manager.
This review was performed at the IRS National Headquarters in Washington, D.C.; the
IRS Procurement office in Oxon Hill, Maryland; and the IT organization offices in
New Carrollton, Maryland; Detroit, Michigan; and Philadelphia, Pennsylvania, during the
period October 2011 through August 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                   Inadequate Aircard and BlackBerry® Smartphone Assignment and
                          Monitoring Processes Result in Millions of Dollars
                                     in Unnecessary Access Fees




                                        Results of Review

The processes for assigning and monitoring the use of aircards and BlackBerry® smartphones
are not effective. We found that assignment of these devices is generally based on job series
classifications without adequately ensuring a business need exists. For example, management
did not always consider the frequency that an employee actually works outside an IRS office
prior to assigning devices. We also found that required managerial approvals were not always
obtained when employees who were not in a profiled job series were assigned these devices. We
identified 2,560 devices without a documented management approval, costing the IRS more than
$950,000 in FY 2011, or potentially about $4.8 million over five years.
In addition, processes for monitoring aircard and BlackBerry® smartphone use do not ensure the
IRS is not paying for unused or underutilized equipment. Established processes to notify
employees when aircards were not used for 90 calendar days were not being followed, and there
was no formal process to monitor BlackBerry® smartphone use for similar periods of inactivity.
For example, we identified periods of inactivity during FY 2011 for aircards and BlackBerry®
smartphones ranging from three to 12 months; however, the IRS still incurred monthly access
fees totaling approximately $1.1 million for these devices. Overall, process improvements can
result in cost savings totaling approximately $5.9 million over five years. Of this, approximately
$2.1 million could potentially be saved in the first year.
Implementation of more effective assignment and monitoring processes will reduce technology
costs in support of the President’s November 2011 Executive Order1 to cut waste in Federal
Government spending and identify opportunities to promote efficient and effective spending.
The Executive Order directed Federal agencies to cut combined costs by 20 percent in six areas,
including information technology devices. Agencies were directed to assess current device
inventories and usage, and establish controls to ensure that they are not paying for unused or
underutilized information technology equipment, installed software, or services. Further, each
agency was requested to take steps to limit the number of information technology devices issued
to employees, e.g., mobile telephones, smartphones, desktop and laptop computers, and tablet
personal computers.

Processes to Assign Aircards and BlackBerry® Smartphones Are Not
Adequate
Aircards and BlackBerry® smartphones are generally assigned to IRS employees based on job
series classifications. Although IRS management stated that the job series profiled as high

1
    Exec. Order No. 13,589, 3 C.F.R. § 13,589 (2011).
                                                                                           Page 3
                 Inadequate Aircard and BlackBerry® Smartphone Assignment and
                        Monitoring Processes Result in Millions of Dollars
                                   in Unnecessary Access Fees



mobility were based on factors such as travel and work outside the office, which includes
working in locations without Internet connectivity and employees who telework,2 our review
indicated that some job series profiled may not involve frequent travel and therefore may not
justify a business need for these devices. The IRS has not established a process to periodically
review the profiled job series to ensure the positions still involve high mobility as initially
profiled. For example, IT organization specialists are in a job series profiled as high mobility –
frequent travel outside of the office. However, the standard position description for an IT
organization specialist (Applications Software) notes that the work performed by this position is
primarily sedentary and requires only some travel away from the work site to attend meetings
and conferences or to visit vendor/contractor facilities.
In addition, managerial review of profiled employee requests for devices does not always ensure
that requesting employees have a business need before devices are assigned. IT organization
management stated that an employee in a profiled job series must obtain management approval
before a request for assignment of a device is sent to IT organization personnel. IT organization
personnel will verify only whether the employee has been profiled and relies on the employee’s
manager to ensure a business need exists for assigning the device.
Further, we found that there is no consistent process followed within the business units when
determining whether an exception should be granted for requests from employees in nonprofiled
job series. Discussions with business unit coordinators identified that there are no documented
procedures or formalized processes to be followed when determining whether an exception
should be granted, i.e., frequency of travel outside an IRS office. We found that requests can be
made informally via e-mail within some business units, while others require a standardized form
to be completed. Further, the level of management approval required for the exceptions varies
between the business units.

IRS policy does not specify assignment criteria for a BlackBerry® smartphone
Similar to aircards, assignment of BlackBerry® smartphones is based on job series that were
classified by IRS management subsequent to the NTEU agreement. Initially, IRS policy limited
the assignment of BlackBerry® smartphones to executives and senior/departmental managers.
However, the agreement between the IRS and the NTEU expanded availability to employees
below the executive and senior/departmental level. Although the agreement indicates that
assigning employees a device will be based on job series and grade, the final agreement was
silent on which specific job series and grade levels are eligible for a BlackBerry® smartphone.
For example, there are no specific criteria in the agreement, nor is there any IRS guidance for
assigning frontline managers and nonmanagement employees a BlackBerry® smartphone.



2
  Telework employees are those who work full- or part-time on a routine basis at home or another location away
from the office.
                                                                                                          Page 4
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



As of May 2012, there were 5,124 BlackBerry® smartphones assigned to IRS employees. We
determined that the majority of BlackBerry® smartphones are not assigned to executives and
senior/departmental managers as the policy initially set forth. In fact, 3,060 (60 percent) of these
devices are now assigned to frontline managers (872) or nonmanagement employees (2,188).
These 3,060 devices cost the IRS approximately $1.6 million in FY 2011. Similar to the
processes for assigning aircards, processes need to be developed to ensure that managerial
approval of these devices is based on business need criteria, such as the frequency of work
outside an IRS office.

Pooling can provide an opportunity to reduce costs while ensuring employees
have the tools they need to do their jobs
To ensure employees have the necessary tools to perform their jobs and reduce costs, the IRS
should develop a pooling process. For example, aircards could be maintained in a central office
location and assigned to employees as needed, then returned when the employees were not
working outside an IRS office.
During our audit, some business unit coordinators informed us they tried to establish a loaner
program for aircards in which they could be assigned to the office manager at each location and
signed out to employees on travel. However, at that time, the information technology inventory
system used to record and track these devices required they be assigned to specific individuals.
As a result, the pooling programs were stopped. Since that time, IT organization management
has implemented a new inventory system that will allow for the recording and tracking of
devices that are loaned out. One business unit informed us that it has initiated a pilot program to
pool aircards for emergencies or travel. A pooling approach can allow the IRS to reduce the
number of aircards currently assigned to individuals who do not frequently work outside an IRS
office, yet provide the availability of these devices when needed.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Develop a process that periodically evaluates the job series currently
profiled for aircards and BlackBerry® smartphones to ensure those profiled job series still
involve positions with high mobility.
       Management’s Response: IRS management agreed and stated they will establish a
       policy to implement the recommendation.
Recommendation 2: Develop a process to ensure that managerial approval of devices is
based on business need criteria, such as the frequency of work outside an IRS office by the
requesting employee.


                                                                                             Page 5
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



       Management’s Response: IRS management disagreed with this recommendation
       and stated they have had appropriate processes documented and working effectively since
       June 2010. The requirement for managerial approval based on the employee’s business
       requirements is in place and is systemically required for any employee requesting
       nonprofiled equipment.
       Office of Audit Comment: During our review, we identified 13,878 aircards and
       754 BlackBerry® smartphones that were not used during FY 2011 for periods ranging
       from three months to one year. This is after the June 2010 date for which the IRS
       indicated that it implemented effective processes to address our recommendation. Our
       work indicates that employees whose job duties do not require frequent work outside the
       office have been assigned devices. In addition, our work found there is no consistent
       process followed within the business units when determining whether employees in a
       nonprofiled job series are granted a BlackBerry® smartphone or aircard. As a result, we
       continue to believe that IRS management should take action to enhance existing controls
       and ensure a consistent, documented process exists for the business units when approving
       these devices for nonprofiled employees.
Recommendation 3: Establish a pooling policy to provide availability of aircards to
employees who do not frequently travel outside an IRS office when a business need exists.
       Management’s Response: IRS management disagreed with this recommendation.
       However, IRS management stated they will conduct a business assessment regarding
       aircards to determine if a shared aircard policy would be more effective than the current
       policy. We believe this action addresses the intent of our recommendation.

Employees Are Assigned Aircards and BlackBerry® Smartphones
Without the Required Management Approval
Our review identified 2,560 devices assigned to IRS employees who, per IRS inventory records,
were not in a profiled job series. These aircard and/or BlackBerry® smartphone devices were
assigned without the required management approval. For example, we identified:
      1,560 aircards assigned as of May 2012 to employees with no documented exception
       (management approval) reflected in inventory records as required. For FY 2011, those
       aircards cost the IRS approximately $424,000.
      1,000 BlackBerry® smartphones assigned as of May 2012 to employees with no
       documented exception (management approval) reflected in inventory records as required.
       These BlackBerry® smartphones are assigned to frontline or nonmanagement employees
       and cost the IRS approximately $533,640 in FY 2011.
Our analysis of a random sample of 60 of the 2,560 devices (30 aircards and 30 BlackBerry®
smartphones) found that for 40 (67 percent) of the 60 devices, the business unit coordinators
                                                                                           Page 6
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



agreed the devices were assigned to employees who were not in a profiled job series, and
therefore, they are required to have documented management approval supporting the exception
for the equipment. The coordinators informed us that they believed 14 of these 40 devices were
cancelled and were no longer in possession of the employee. The applicable business unit
coordinator for one of the remaining 20 devices stated that it was inaccurately reflected in
inventory records as being assigned to an employee who was not in possession of the device.
For the remaining 19 devices, the coordinators provided us with documentation supporting either
that the employee was in a profiled job series allowing them to be assigned the device or had
management approval for the device. However, inventory records were inaccurate because they
were not updated to reflect the management approval for these devices. During our field work,
IT organization management stated that they have experienced technical issues with their
inventory system, resulting in lost data. As a result, they had to reconstruct their database using
prior records, which resulted in errors in the inventory records. At the end of our field work, IT
organization management did not have an established process to identify employees assigned
devices who are in a nonprofiled job series and do not have a documented management approval
for the devices.
Based on concerns we identified during this review related to the accuracy of the IT
organization’s inventory records, we plan to initiate a separate review assessing inventory
controls over these devices.

Recommendation
The Chief Technology Officer should:
Recommendation 4: Develop processes and procedures to ensure IT organization
management periodically reviews its inventory records to identify devices shown on its system
as assigned to employees without proper management approval or in accordance with established
procedures.
       Management’s Response: IRS management disagreed with this recommendation
       and stated they have appropriate processes documented and working effectively. IRS
       management indicated they have implemented a process to compare current BlackBerry®
       smartphone and aircard accounts against the existing Equipment Portfolio to identify any
       employee who is no longer profiled as a result of a change in his or her roles or
       responsibilities. IRS management stated this process was modified on October 1, 2012,
       to run monthly, rather than quarterly, as initially designed.
       Office of Audit Comment: During our field work, IRS management did not provide
       us with any documentation or indicate they have a process requiring IT organization
       management to identify these types of devices on a quarterly basis and take appropriate
       action. In their response, IRS management stated they have appropriate processes in

                                                                                              Page 7
                   Inadequate Aircard and BlackBerry® Smartphone Assignment and
                          Monitoring Processes Result in Millions of Dollars
                                     in Unnecessary Access Fees



           place to identify these devices; however, they indicated that the specified process was
           updated on October 1, 2012, which was after we completed our field work. Based on the
           number of devices that we identified on their inventory records as being in a nonprofiled
           job series without management approval, we are concerned that the current process is not
           adequate to address the reported weaknesses. As a result, we continue to believe the IRS
           should take action to enhance its existing controls.

 Unnecessary Usage Costs Are Being Paid for Unused and
 Underutilized Aircards and BlackBerry® Smartphones
 The IRS paid approximately $1.1 million during FY 2011 for 13,878 aircards and
 754 BlackBerry® smartphones that were not used for periods ranging from three months to one
 year. For example, we identified 45 aircards and 68 BlackBerry® smartphones that were not
 used at all for the entire 12 months of the fiscal year. During FY 2011, the IRS paid more than
 $48,000 in monthly access fees for these 113 devices. For example, a BlackBerry® smartphone
 was assigned as of May 2012 to a contact representative whose main duty is to answer calls on
 the IRS’s toll-free telephone line from individuals requesting technical or procedural information
 and assistance. Figure 1 provides the FY 2011 breakdown of the aircards and BlackBerry®
 smartphones with no usage.
         Figure 1: Volume of Devices With No Use During FY 2011 Ranging From
            Three to 12 Months and the Associated Monthly Access Fees Paid

Months of       Aircards With        Monthly Access         BlackBerry® Smartphones   Monthly Access
No Usage          No Usage             Fees Paid                 With No Usage          Fees Paid
    3                 3,559               $149,478                        177             $23,614
    4                 3,553               $198,968                        149             $26,504
    5                 2,603               $182,210                        78              $17,343
    6                 1,935               $162,540                        59              $15,742
    7                 1,129               $110,642                        60              $18,677
    8                  612                 $68,544                        48              $17,076
    9                  253                 $31,878                        42              $16,810
   10                  119                 $16,660                        40              $17,788
   11                  70                  $10,780                        33              $16,143
   12                  45                  $7,560                         68              $36,288
 Totals              13,878               $939,260                        754            $205,985
        Source: Our analysis of FY 2011 service provider usage reports.

                                                                                              Page 8
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



Notification e-mails were not always sent as required to employees assigned
aircards with 90 consecutive days of no use
Our review identified that management developed a process to monitor aircards for no use;
however, notification e-mails were not always sent as required. A similar process has not been
implemented to monitor BlackBerry® smartphones for nonusage. IT organization personnel are
responsible for monitoring aircard use on a monthly basis using service provider usage reports.
These reports include a breakdown of employees who have not used their aircard at all for 90
consecutive days (three months). In FY 2010, the IRS implemented a policy requiring IT
organization personnel to e-mail employees identified as not using their aircard for 90
consecutive days, notifying them that the card will be cancelled. The employees are required to
contact their business unit coordinator if they do not want their card cancelled. Business unit
coordinators are responsible for informing IT organization personnel on whether to cancel the
aircard.
Our review of a random sample of 36 aircards appearing on the 90-day zero usage reports for
FY 2011 (three aircards per month) identified that IT organization personnel did not send e-mails
as required to 11 (31 percent) of the 36 employees. IT organization management informed us
that the review of the usage reports is a manual process, which may have contributed to the
failure to send e-mails as required. On any given month in FY 2011, there was an average of
about 3,000 employees on the 90-consecutive-day zero usage report. We determined that IRS
management cancelled 6,800 aircards in FY 2011, of which 5,325 were cancelled following
90 days of zero usage.

Cellular telephones may provide a lower cost option to meet business needs for
some employees assigned BlackBerry® smartphones
We identified BlackBerry® smartphones for which the telephone service was being used but no
data usage occurred during FY 2011. The BlackBerry® smartphone data capability enables the
employee to check e-mail and access the Internet. We identified 18 BlackBerry® smartphones
with no data use for three to five months and six BlackBerry® smartphones with no data use for
six months or more for which the telephone service was used. As a result, the IRS is paying
more for a BlackBerry® smartphone when the individual is using it only for the telephone
service. These 24 BlackBerry® smartphones cost the IRS about $4,000.
We did not review the IRS’s costs associated with cellular telephones (cellphones) during this
review; we focused our work on devices providing data access. However, the IRS may be able
to lower costs for those employees we identified as not using the data capability of the
BlackBerry® smartphone by determining whether a cellular telephone should be provided
instead of a BlackBerry® smartphone. Cellular telephones generally cost about $18.28 less per
month than BlackBerry® smartphones.



                                                                                          Page 9
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



Recommendations
The Chief Technology Officer should:
Recommendation 5: Develop a formalized process, similar to the aircard process, to identify
BlackBerry® smartphones with no usage to ensure a business need still exists for assignment of
the device. In addition, ensure “no usage” notification procedures established for both aircards
and BlackBerry® smartphones are followed.
       Management’s Response: IRS management agreed with this recommendation and
       stated they have formally documented their nonusage cancellation process for
       BlackBerry® smartphones.
Recommendation 6: Develop processes to identify employees assigned a BlackBerry®
smartphone with no data use to determine whether the BlackBerry® smartphone should be
replaced with a lower costing cellular telephone.
       Management’s Response: IRS management disagreed with this recommendation
       and stated they have had appropriate processes documented and working effectively since
       June 2010. One process requires IRS management to evaluate each BlackBerry®
       smartphone request in lieu of a cellphone. In addition, IRS management stated
       employees assigned a BlackBerry® smartphone with no data usage could lose that
       BlackBerry® smartphone in conjunction with the existing BlackBerry® smartphone
       nonusage cancellation process.
       Office of Audit Comment: IRS management indicated that they implemented
       effective processes in June 2010 that they believe address our recommendation.
       However, IRS management did not provide us during our review any formalized
       procedures related to the process followed to monitor BlackBerry® smartphones with no
       data usage. In addition, we did not identify any actions taken by the IRS to monitor
       BlackBerry® smartphones with no data usage. The IRS indicated its process for
       identifying BlackBerry® smartphones with no usage was documented in November
       2012, after we completed our field work. As a result, we cannot comment on whether the
       formalized process fully addresses our recommendation. However, we continue to
       believe that any process used by the IRS to identify inefficient use of BlackBerry®
       smartphones should include identifying both BlackBerry® smartphones with no usage
       (data or voice) and BlackBerry® smartphones for which telephone service is being used
       but data service is not.




                                                                                         Page 10
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is managing its aircards
and BlackBerry® smartphones in a cost-effective manner. To accomplish our objective, we:
I.     Determined whether policies, procedures, and guidelines relating to the IRS’s use and
       management of aircards have been developed and issued.
       A. Obtained and reviewed all policies, procedures, and guidelines pertaining to the
          submission, review, and approval of aircards.
       B. Obtained and reviewed all policies, procedures, and guidelines for monitoring the
          aircards.
       C. Obtained and reviewed the policies, procedures, and guidelines for deactivating
          aircards returned by IRS personnel.
II.    Determined whether policies, procedures, and guidelines governing the IRS’s use and
       management of BlackBerry® smartphones and other mobile devices have been
       developed and issued.
       A. Obtained and reviewed all policies, procedures, and guidelines pertaining to the
          submission for, review and approval of, and issuance of BlackBerry® smartphones.
       B. Obtained and reviewed all policies, procedures, and guidelines for monitoring the use
          of BlackBerry® smartphones.
       C. Obtained and reviewed the policies, procedures, and guidelines for deactivating
          mobile devices returned by IRS personnel.
III.   Identified any steps taken by the IRS to reduce the costs associated with wireless
       technologies. We interviewed applicable IT organization and business unit management
       and determined whether they have evaluated the use of wireless technologies to identify
       any cost savings that can be achieved
IV.    Determined whether actions can be taken to reduce the costs of aircards.
       A. Determined how the IRS manages and monitors the costs of aircards.
       B. Determined how the IRS purchases aircards and whether it is done in a cost-effective
          manner.



                                                                                         Page 11
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



V.     Determined whether actions were taken to reduce the costs of BlackBerry® smartphones
       and other mobile devices.
       A. Determined how IRS management monitors the costs of BlackBerry® smartphones
          and other mobile devices.
       B. Determined how the IRS purchases BlackBerry® smartphones and whether it is done
          in a cost-effective manner.
       C. Determined whether costs associated with data access on BlackBerry® smartphones
          can be reduced.
       D. Selected and reviewed a random sample of 30 of the 1,000 BlackBerry® smartphone
          users and 30 of the 1,560 aircard users (with an assigned device as of May 2012) to
          determine whether they were profiled for use or were given an exception to receive
          the devices.
       E. Selected a random sample of 36 aircards appearing on the 90-day zero usage reports
          for FY 2011 (three aircards per month) to determine if IT organization personnel sent
          e-mails to employees as required.
In completing our review, we relied on detailed aircard and BlackBerry® smartphone inventory
data from the IRS and data usage reports from AT&T, Verizon, and Sprint. In order to assess the
reliability of these inventory and usage reports, data were reviewed for accuracy. We reviewed
samples of the data to verify their accuracy and identified that numerous employee data were
missing or incorrect. However, we found the data to be reliable for the limited purposes of this
audit and performed no other data validity tests.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies and procedures for
assigning and monitoring aircards and BlackBerry® smartphones. We evaluated these controls
by interviewing IRS management and reviewing aircard and BlackBerry® smartphone inventory
and billing data.




                                                                                        Page 12
             Inadequate Aircard and BlackBerry® Smartphone Assignment and
                    Monitoring Processes Result in Millions of Dollars
                               in Unnecessary Access Fees



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Larry Reimer, Audit Manager
Terrey A. Haley, Lead Auditor
Kanika Kals, Senior Auditor
Kevin Liu, Senior Auditor
Autumn E. Gill, Evaluator




                                                                                  Page 13
             Inadequate Aircard and BlackBerry® Smartphone Assignment and
                    Monitoring Processes Result in Millions of Dollars
                               in Unnecessary Access Fees



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, End-User Equipment and Services OS:CTO:UNS
Director, Operations Service Support OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Technology Officer OS:CTO




                                                                                  Page 14
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $424,008 per year for FY 2011 through
    FY 2015, totaling approximately $2.1 million over five years. This represents the aircard
    costs that could potentially be avoided if the IRS periodically reviews its inventory system
    and takes appropriate action for devices shown on its system as assigned to employees
    without proper management approval or in accordance with established procedures
    (see page 6).

Methodology Used to Measure the Reported Benefit:
We analyzed the IRS’s inventory records as of May 2012 and determined that 2,018 of
30,834 aircards were assigned to IRS employees who were not profiled to receive them based on
their job series. Our review showed that 1,560 of these 2,018 aircards do not have a documented
exception, i.e., management approval, reflected on IT organization inventory records. As a
result, these employees may not have a business need for the aircards. Based on an average cost
of $22.65 per aircard per month, we estimate that these aircards cost $424,008 in FY 2011
($22.65 x 12 months x 1,560 = $424,008). Over a five-year period, this would result in aircard
cost savings of approximately $2,120,040 ($424,008 x five years = $2,120,040).

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $533,640 per year for FY 2011 through
    FY 2015, totaling approximately $2.7 million over five years. This represents the
    BlackBerry® smartphone costs that could potentially be avoided if the IRS periodically
    reviews its inventory system and takes appropriate action for devices shown on its system as
    assigned to employees without proper management approval or in accordance with
    established procedures
    (see page 6).

Methodology Used to Measure the Reported Benefit:



                                                                                          Page 15
              Inadequate Aircard and BlackBerry® Smartphone Assignment and
                     Monitoring Processes Result in Millions of Dollars
                                in Unnecessary Access Fees



We analyzed the IRS’s inventory records as of May 2012 and determined that 2,123 of
5,124 BlackBerry® smartphones were assigned to IRS employees who were not profiled to
receive them based on their job series. Our review showed that 1,000 of these 2,123
BlackBerry® smartphones do not have a documented exception, i.e., management approval,
reflected on IT organization inventory records. As a result, these employees may not have a
business need for these BlackBerry® smartphones. Based on an average cost of $44.47 per
BlackBerry® smartphone per month, we estimate that these devices cost $533,640 in FY 2011
($44.47 x 12 months x 1,000 = $533,640). Over a five-year period, this would result in
BlackBerry® smartphone cost savings of approximately $2,668,200 ($533,640 x five years =
$2,668,200).

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $939,260 (see page 8).

Methodology Used to Measure the Reported Benefit:
Our analysis of FY 2011 usage reports provided to the IRS showed that approximately
39 percent of the employees assigned an aircard (13,878 of 35,241) did not use their aircard for
three or more months during FY 2011. Based on an average zero usage cost of $14.00 per
aircard per month, we estimate that these devices cost $939,260 in FY 2011. See Figure 1 on
page 8 for additional details.

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $205,985 (see page 8).

Methodology Used to Measure the Reported Benefit:
We analyzed FY 2011 usage reports and determined that 16 percent of the employees assigned a
BlackBerry® smartphone (754 of 4,705) did not use it (no voice or data) for three or more
months. Based on an average cost of $44.47 per BlackBerry® smartphone per month, we
estimate that these devices cost $205,985 in FY 2011. See Figure 1 on page 8 for additional
details.




                                                                                          Page 16
   Inadequate Aircard and BlackBerry® Smartphone Assignment and
          Monitoring Processes Result in Millions of Dollars
                     in Unnecessary Access Fees



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 17
Inadequate Aircard and BlackBerry® Smartphone Assignment and
       Monitoring Processes Result in Millions of Dollars
                  in Unnecessary Access Fees




                                                      Page 18
Inadequate Aircard and BlackBerry® Smartphone Assignment and
       Monitoring Processes Result in Millions of Dollars
                  in Unnecessary Access Fees




                                                      Page 19
Inadequate Aircard and BlackBerry® Smartphone Assignment and
       Monitoring Processes Result in Millions of Dollars
                  in Unnecessary Access Fees




                                                            

                                                      Page 20
